No. 19-784
lNTHE

~upreme <!Court of tbe mlniteb ~tates
UNIVERSITY OF PENNSYLVANIA, ET AL.,

Petitioners,
V.

JENNIFER SWEDA, ET AL.,

Respondents.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Third Circuit

CERTIFICATE OF SERVICE
I am a member of the Bar of this Court, and I hereby certify pursuant to
Supreme Court Rules 29.3, 29.5, and 37.5 that I have, this 17th day of January,
2020, served three copies of the Brief for the Chamber of Commerce of the United
States and the American Benefits Council as Amici Curiae Supporting Petitioners
upon each party separately represented in this proceeding by causing them to be
deposited with the United States Postal Service, with first-class postage prepaid,
addressed to counsel of record at the addresses listed below:
David B. Salmons
Morgan, Lewis & Bockius LLP
1111 Pennsylvania Avenue, NW
Washington, DC 20004
david.salmons@morganlewis.com

Counsel of Record for Petitioners

Jerome J. Schlichter
Schlichter, Bogard & Denton, LLP
100 S. 4th Street, Suite 1200
St. Louis, MO 63102
j schlichter@uselaw s. com

Counsel of Record for Respondents
I further certify that, pursuant to Supreme Court Rule 29.3, I have caused
electronic copies of t he brief to be served on the parties at the email addresses listed
above.
I further certify that all persons required to be served have been served.

n

OS

win Pr er LLP
1900 N Street, NW
Washington, DC 20036
jsantos@goodwinlaw.com
(202) 346-4000
January 17, 2020

Counsel for Amici Curiae

2

